               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-00686-166




    Combined Assessment Program 

             Review of the 

    Aleda E. Lutz VA Medical Center 

          Saginaw, Michigan 





May 27, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                      CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Aleda E. Lutz VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                 CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishment........................................................................................                    2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Follow-Up on Previous CAP Recommendations ..................................................... 16


Appendixes
  A. Facility Profile ....................................................................................................        17

  B. Strategic Analytics for Improvement and Learning ............................................                                18

  C. VISN Director Comments ..................................................................................                    21

  D. Facility Director Comments ...............................................................................                   22

  E. OIG Contact and Staff Acknowledgments .........................................................                              27

  F. Report Distribution .............................................................................................            28

  G. Endnotes ...........................................................................................................         29





VA OIG Office of Healthcare Inspections
                                      CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
March 10, 2014.

Review Results: The review covered seven activities and follow-up on
recommendations from the previous Combined Assessment Program review. We made
no recommendations in the following four activities:

 Quality Management

 Environment of Care

 Medication Management

 Coordination of Care

The facility’s reported accomplishment was being recognized as one of the Most Wired
health care systems in the country.

Recommendations: We made recommendations in the following three activities
and in the follow-up areas:

Nurse Staffing: Fully implement the plan approved in March 2014. Include all required
members on the facility expert panel and the acute care unit-based expert panel.

Pressure Ulcer Prevention and Management: Accurately document the risk scale score
for all patients with pressure ulcers. Establish staff pressure ulcer education
requirements. Initiate and complete wound care specialist consults for all patients with
pressure ulcers.

Community Living Center Resident Independence and Dignity: Complete and document
restorative nursing services according to residents’ care plans, document residents’
progress toward restorative nursing goals, and document residents’ restorative progress
bi-weekly.

Follow-Up Areas: Consult with Veterans Health Administration program managers
regarding Sterile Processing Service humidity control issues, and follow recommended
actions. Ensure all required participants or their designees attend weekly environment
of care rounds.




VA OIG Office of Healthcare Inspections                                                            i
                                      CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 21–26, for the full
text of the Directors’ comments.) We consider recommendations 1, 2, and 3 closed.
We will follow up on the planned actions for the open recommendations until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                            ii
                                      CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities and follow-up on recommendations from the previous CAP
review:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FYs 2011–2013 and FY 2014 through
March 13, 2014, and was done in accordance with OIG standard operating procedures


VA OIG Office of Healthcare Inspections                                                           1
                                      CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


for CAP reviews.        We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Aleda E. Lutz VA Medical Center, Saginaw, Michigan, Report
No. 09-03276-154, May 18, 2010). We made repeat recommendations regarding SPS
sterile storage humidity levels and EOC rounds attendance.

During this review, we presented crime awareness briefings for 93 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
180 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

Most Wired Award
In 2013, the facility was recognized by Hospitals and Health Networks magazine as one
of the Most Wired health care systems in the country. This recognition is awarded to
health care systems that have exceeded industry benchmarks for the integration and
utilization of information technology. As a result of the facility’s enhanced information
technology systems, during FY 2013, telehealth encounters increased from 1,128 to
14,473.




VA OIG Office of Healthcare Inspections                                                           2
                                           CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

 NM                     Areas Reviewed                                    Findings
        There was a senior-level committee/group
        responsible for QM/performance
        improvement that met regularly.
         There was evidence that outlier data was
           acted upon.
         There was evidence that QM, patient
           safety, and systems redesign were
           integrated.
        The protected peer review process met
        selected requirements:
         The PRC was chaired by the Chief of Staff
           and included membership by applicable
           service chiefs.
         Actions from individual peer reviews were
           completed and reported to the PRC.
         The PRC submitted quarterly summary
           reports to the MEC.
         Unusual findings or patterns were
           discussed at the MEC.
        Focused Professional Practice Evaluations
        for newly hired licensed independent
        practitioners were initiated and completed,
        and results were reported to the MEC.
        Specific telemedicine services met selected
        requirements:
         Services were properly approved.
         Services were provided and/or received by
           appropriately privileged staff.
         Professional practice evaluation
           information was available for review.




VA OIG Office of Healthcare Inspections                                                                3
                                               CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


 NM              Areas Reviewed (continued)                                   Findings
        Observation bed use met selected
        requirements:
         Local policy included necessary elements.
         Data regarding appropriateness of
           observation bed usage was gathered.
         If conversions to acute admissions were
           consistently 30 percent or more,
           observation criteria and utilization were
           reassessed timely.
        Staff performed continuing stay reviews on at
        least 75 percent of patients in acute beds.
        The process to review resuscitation events
        met selected requirements:
         An interdisciplinary committee was
           responsible for reviewing episodes of care
           where resuscitation was attempted:
         Resuscitation event reviews included
           screening for clinical issues prior to events
           that may have contributed to the
           occurrence of the code.
         Data were collected that measured
           performance in responding to events.
        The surgical review process met selected
        requirements:
         An interdisciplinary committee with
           appropriate leadership and clinical
           membership met monthly to review
           surgical processes and outcomes.
         All surgical deaths were reviewed.
         Additional data elements were routinely
           reviewed.
        Critical incidents reporting processes were
        appropriate.
        The process to review the quality of entries in
        the EHR met selected requirements:
         A committee was responsible to review
           EHR quality.
         Data were collected and analyzed at least
           quarterly.
         Reviews included data from most services
           and program areas.
        The policy for scanning non-VA care
        documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                    4
                                                CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


 NM             Areas Reviewed (continued)                                     Findings
        The process to review blood/transfusions
        usage met selected requirements:
         A committee with appropriate clinical
           membership met at least quarterly to
           review blood/transfusions usage.
         Additional data elements were routinely
           reviewed.
        Overall, if significant issues were identified,
        actions were taken and evaluated for
        effectiveness.
        Overall, senior managers were involved in
        performance improvement over the past
        12 months.
        Overall, the facility had a comprehensive,
        effective QM/performance improvement
        program over the past 12 months.
        The facility met any additional elements
        required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                     5
                                            CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected the acute care, the palliative care, the urgent care, and two CLC units; three
primary care clinics; and the x-ray and nuclear medicine units. Additionally, we reviewed
relevant documents, conversed with key employees and managers, and reviewed 10 radiology
employees’ training records. The table below shows the areas reviewed for this topic. Any
items that did not apply to this facility are marked NA. The facility generally met requirements.
We made no recommendations.

NM            Areas Reviewed for General EOC                               Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                 
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,     
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes         
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.




VA OIG Office of Healthcare Inspections                                                                 6
                                               CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


NM      Areas Reviewed for Radiology (continued)                              Findings
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
 NA    MH EOC inspections were conducted every               
       6 months.
 NA    Corrective actions were taken for                     
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
 NA    MH unit staff, Multidisciplinary Safety               
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.




VA OIG Office of Healthcare Inspections                                                                    7
                                          CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


NM      Areas Reviewed for Acute MH (continued)                          Findings
NA     The locked MH unit(s) was/were in                
       compliance with MH EOC Checklist safety
       requirements or an abatement plan was in
       place.
 NA    The facility complied with any additional            
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                               8
                                              CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed                   with key managers and employees.
Additionally, we reviewed the EHRs of 29 randomly             selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the        areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The        facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                       Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   9
                                             CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of six patients with specific diagnoses who were discharged from
July 1, 2012, through June 30, 2013. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

 NM                     Areas Reviewed                                      Findings
        Patients’ post-discharge needs were
        identified, and discharge planning addressed
        the identified needs.
        Clinicians provided discharge instructions to
        patients and/or caregivers and validated their
        understanding.
        Patients received the ordered aftercare
        services and/or items within the
        ordered/expected timeframe.
        Patients’ and/or caregivers’ knowledge and
        learning abilities were assessed during the
        inpatient stay.
        The facility complied with any additional
        elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 10
                                                 CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on two inpatient units (acute medical/surgical and long-term care).5

We reviewed facility and unit-based expert panel documents and 11 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 2 units—the acute medical/surgical unit and the CLC unit—for 50 randomly selected
days between October 1, 2012, and September 30, 2013. The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

 NM                        Areas Reviewed                                        Findings
  X        The facility either implemented or reassessed      The facility Director did not document
           a nurse staffing methodology within the             approval of the nurse staffing methodology
           expected timeframes.                                implementation plan until March 2014.
     X     The facility expert panel followed the required    The facility expert panel did not include
           processes and included the required                 evening and night supervisory staff, staff
           members.                                            nurses and other nursing staff providing direct
                                                               patient care, and a Labor Partner
                                                               representative.
     X     The unit-based expert panels followed the          The acute care unit-based expert panel did
           required processes and included the required        not include licensed practical nurses and
           members.                                            nursing assistants.
           Members of the expert panels completed the
           required training.
           The actual nursing hours per patient day met
           or exceeded the target nursing hours per
           patient day.
           The facility complied with any additional
           elements required by VHA or local policy.

Recommendations

1.       We recommended that nursing managers fully implement the plan approved in March 2014.

2. We recommended that the annual staffing plan reassessment process ensures that the
facility expert panel includes all required members.

3. We recommended that the annual staffing plan reassessment process ensures that the
acute care unit-based expert panel includes all required members.




VA OIG Office of Healthcare Inspections                                                                     11
                                              CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 5 EHRs of patients with community-acquired pressure ulcers,
and 10 employee training records. The table below shows the areas reviewed for this topic.
The areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

 NM                     Areas Reviewed                                       Findings
        The facility had a pressure ulcer prevention
        policy, and it addressed prevention for all
        inpatient areas and for outpatient care.
        The facility had an interprofessional pressure
        ulcer committee, and the membership
        included a certified wound care specialist.
        Pressure ulcer data was analyzed and
        reported to facility executive leadership.
        Complete skin assessments were performed
        within 24 hours of acute care admissions.
        Skin inspections and risk scales were
        performed upon transfer, change in condition,
        and discharge.
  X     Staff were generally consistent in              In two of the five EHRs, staff did not
        documenting location, stage, risk scale score,   consistently document the risk scale score.
        and date acquired.
        Required activities were performed for
        patients determined to be at risk for pressure
        ulcers and for patients with pressure ulcers.
        Required activities were performed for
        patients determined to not be at risk for
        pressure ulcers.
        For patients at risk for and with pressure
        ulcers, interprofessional treatment plans were
        developed, interventions were
        recommended, and EHR documentation
        reflected that interventions were provided.
        If the patient’s pressure ulcer was not healed
        at discharge, a wound care follow-up plan
        was documented, and the patient was
        provided appropriate dressing supplies.
        The facility defined requirements for patient
        and caregiver pressure ulcer education, and
        education on pressure ulcer prevention and
        development was provided to those at risk for
        and with pressure ulcers and/or their
        caregivers.




VA OIG Office of Healthcare Inspections                                                                  12
                                            CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


 NM              Areas Reviewed (continued)                                 Findings
  X     The facility defined requirements for staff      The facility had not developed staff pressure
        pressure ulcer education, and acute care          ulcer education requirements.
        staff received training on how to administer
        the pressure ulcer risk scale, conduct the
        complete skin assessment, and accurately
        document findings.
 NA     The facility complied with selected fire and
        environmental safety, infection prevention,
        and medication safety and security
        requirements in pressure ulcer patient rooms.
  X     The facility complied with any additional       Local policies on pressure ulcer prevention and
        elements required by VHA or local policy.       management and the consult process reviewed:
                                                         Local pressure ulcer policy requires that a
                                                          wound care specialist consult be initiated for
                                                          all patients with a pressure ulcer. In two of
                                                          the five EHRs, wound care specialist consults
                                                          were not initiated.
                                                         Local consult policy requires that all
                                                          consultative services be completed during an
                                                          inpatient admission. In two of the five EHRs,
                                                          wound care specialist consults were not
                                                          completed.

Recommendations

4. We recommended that processes be strengthened to ensure that acute care staff
accurately document the risk scale score for all patients with pressure ulcers and that
compliance be monitored.

5. We recommended that the facility establish staff pressure ulcer education requirements and
that compliance be monitored.

6. We recommended that processes be strengthened to ensure that wound care specialist
consults are initiated and completed for all patients with pressure ulcers and that compliance be
monitored.




VA OIG Office of Healthcare Inspections                                                                   13
                                             CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 11 EHRs of residents (10 residents receiving restorative nursing services and
1 resident not receiving restorative nursing services but a candidate for services). We also
observed 1 resident during 2 meal periods, reviewed 10 employee training/competency records
and other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

 NM                     Areas Reviewed                                      Findings
        The facility offered restorative nursing
        services.
  X     Facility staff completed and documented           In 9 of the 10 applicable EHRs, there was no
        restorative nursing services, including active     documentation that facility staff completed
        and passive range of motion, bed mobility,         restorative nursing services according to
        transfer, and walking activities, according to     residents’ care plans.
        clinician orders and residents’ care plans.
  X     Resident progress towards restorative             In 7 of the 10 applicable EHRs, there was no
        nursing goals was documented, and                  evidence that facility staff documented
        interventions were modified as needed to           resident progress towards restorative nursing
        promote the resident’s accomplishment of           goals.
        goals.
        When restorative nursing services were care
        planned but were not provided or were
        discontinued, reasons were documented in
        the EHR.
        If residents were discharged from physical
        therapy, occupational therapy, or
        kinesiotherapy, there was hand-off
        communication between Physical Medicine
        and Rehabilitation Service and the CLC to
        ensure that restorative nursing services
        occurred.
        Training and competency assessment were
        completed for staff who performed restorative
        nursing services.
  X     The facility complied with any additional        Local policy on restorative care program for CLC
        elements required by VHA or local policy.        residents reviewed:
                                                          In 7 of the 10 applicable EHRs, there was no
                                                            bi-weekly documentation regarding residents’
                                                            restorative progress.




VA OIG Office of Healthcare Inspections                                                                 14
                                          CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


Recommendations

7. We recommended that processes be strengthened to ensure that staff complete and
document restorative nursing services according to residents’ care plans and that compliance
be monitored.

8. We recommended that processes be strengthened to ensure that staff document residents’
progress toward restorative nursing goals and that compliance be monitored.

9. We recommended that processes be strengthened to ensure that staff document residents’
restorative progress bi-weekly and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                              15
                                          CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI



           Follow-Up on Previous CAP Recommendations 

As a follow-up to recommendations from our previous CAP review, we reassessed facility
compliance with SPS sterile storage humidity levels and EOC rounds attendance.8

SPS Sterile Storage Humidity Levels. VHA requires SPS sterile storage humidity levels to be
maintained between 20 and 60 percent.          We reviewed humidity log readings for
February 13–March 12, 2014, and found that 2,176 of 2,688 readings (81 percent) were under
the 20 percent threshold.

EOC Rounds Attendance. VHA requires that the Director or Associate Director lead weekly
EOC rounds. Managers in nursing, building management, engineering, safety, patient safety,
and infection control must be included as well as the Information Security Officer and others, as
required. We reviewed weekly EOC rounds and attendance rosters for 2 quarters and
determined that rounds did not include all required participants or their designees.

Recommendations

10. We recommended that the facility consult with VHA program managers regarding SPS
humidity control issues and that recommended actions be followed.

11. We recommended that processes be strengthened to ensure that all required participants or
their designees attend weekly EOC rounds and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                              16
                                             CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI
                                                                                                Appendix A


     Facility Profile (Saginaw/655) FY 2014 through March 2014a
Type of Organization                                                                 Non-intensive care unit
Complexity Level                                                                     3-Low complexity
Affiliated/Non-Affiliated                                                            Affiliated
Total Medical Care Budget in Millions                                                $156.7
Number of:
    Unique Patients                                                                 26,506
    Outpatient Visits                                                               177,317
    Unique Employeesb                                                               788
Type and Number of Operating Beds (February 2014):
    Hospital                                                                        19
    CLC                                                                             81
    MH                                                                              0
Average Daily Census:
    Hospital                                                                        4
    CLC                                                                             38
    MH                                                                              NA
Number of Community Based Outpatient Clinics                                         9
Location(s)/Station Number(s)                                                        Gaylord/655GA
                                                                                     Traverse City/655GB
                                                                                     Oscoda/655GC
                                                                                     Alpena/655GD
                                                                                     Clare County/655GE
                                                                                     Bad Axe/655GF
                                                                                     Cadillac/655GG
                                                                                     Cheboygan/655GH
                                                                                     Grayling/655GI
VISN Number                                                                          11




a
    All data is for FY 2014 through March 2014 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                    17
                                                                    CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI
                                                                                                                       Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                        18
                                                            CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                19
                                                                                                          CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


                                                                         Metric Definitions
 Measure                       Definition                                                                               Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)        A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                  A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                               A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                     A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                              A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)           A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                            A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                        A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                   A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                     A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                           A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                     A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)        A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)                 A higher value is better than a lower value
 PSI                           Patient safety indicator                                                                 A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                         A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                           A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                  A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                     A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                    A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction                A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                   A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                  A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                      A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                           A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)               A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                               20
                                      CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI
                                                                                         Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:       May 1, 2014

          From:        Director, Veterans In Partnership (10N11)

       Subject:        CAP Review of the Aleda E. Lutz VA Medical Center,
                       Saginaw, MI

             To:       Director, Chicago Office of Healthcare Inspections (54CH)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I concur with the findings and recommendations in the report of the
          CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI.

       2. If you have any questions regarding the responses and actions to the
          recommendations, please contact me at 734-222-4300.

           Thank you,




           Paul Bockelman, FACHE 

           Network Director 





VA OIG Office of Healthcare Inspections                                                          21
                                      CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI
                                                                                         Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:       May 1, 2014

          From:        Director, Aleda E. Lutz VA Medical Center (655/00)

       Subject:        CAP Review of the Aleda E. Lutz VA Medical Center,
                       Saginaw, MI

             To:       Director, Veterans In Partnership (10N11)

       I concur with the Aleda E. Lutz VA Medical Center’s response and action
       plans as detailed within this report.




       Peggy W. Kearns, MS, FACHE




VA OIG Office of Healthcare Inspections                                                          22
                                      CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that nursing managers fully implement the
plan approved in March 2014.

Concur

Target date for completion: April 14, 2014

Facility response: Full implementation of the Nurse Staffing Methodology Plan will be in
place by April 14, 2014. Additional required members were added to both the Facility
Expert Panel and the Community Living Center Unit Panel. All panel members have
completed the Staffing Methodology for VHA Nursing Personnel course. Data collection
processes are in place for each unit. The staffing methodology reassessment for each
unit will be performed annually by the Nurse Managers and reported to the Quality
Executive Board.

Recommendation 2. We recommended that the annual staffing plan reassessment
process ensures that the facility expert panel includes all required members.

Concur

Target date for completion: March 13, 2014

Facility response: Facility Expert Action Panel includes all required members. Staff has
completed the Staffing Methodology for VHA Nursing Personnel course.

Recommendation 3. We recommended that the annual staffing plan reassessment
process ensures that the acute care unit-based expert panel includes all required
members.

Concur

Target date for completion: March 12, 2014

Facility response: Acute Care Telemetry Unit Expert Panel includes all required
members. The staff has completed the Staffing Methodology for VHA Nursing
Personnel course.




VA OIG Office of Healthcare Inspections                                                          23
                                      CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


Recommendation 4. We recommended that processes be strengthened to ensure that
acute care staff accurately document the risk scale score for all patients with pressure
ulcers and that compliance be monitored.

Concur

Target date for completion: December 31, 2014

Facility response: All inpatient nursing staff has been assigned an education module on
how to complete the Braden scale. Thirty Braden scores will be reviewed each month
for accuracy of documentation by the Nurse Managers. Reports will be reviewed at the
Pressure Ulcer Committee and Quality Executive Board monthly.

Recommendation 5. We recommended that the facility establish staff pressure ulcer
education requirements and that compliance be monitored.

Concur

Target date for completion: December 31, 2014

Facility response: All inpatient nursing staff has been assigned National Database of
Nursing Quality Indicators modules which include how to assess skin and pressure
ulcers and document findings. They have also been assigned module on the Braden
scale. Nurse Managers to monitor compliance monthly. Reports will be reviewed at the
Pressure Ulcer Committee and Quality Executive Board monthly.

Recommendation 6. We recommended that processes be strengthened to ensure that
wound care specialist consults are initiated and completed for all patients with pressure
ulcers and that compliance be monitored.

Concur

Target date for completion: December 31, 2014

Facility response: All admission assessments and new wound notes will be reviewed.
For pressure ulcers identified in the admission assessment or new wound note, ensure
that a consult is present for the wound specialist. Nurse Managers will monitor
compliance for consults placed and completed monthly. Reports will be reviewed at the
Pressure Ulcer Committee and Quality Executive Board monthly.

Recommendation 7. We recommended that processes be strengthened to ensure that
staff complete and document restorative nursing services according to residents’ care
plans and that compliance be monitored.

Concur

Target date for completion: December 31, 2014




VA OIG Office of Healthcare Inspections                                                          24
                                      CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


Facility response: The Activities of Daily Living (ADL) note will be revised to enable
documentation of residents’ care plan goals pertaining to restorative care. Staff will be
educated on the new process. Restorative Nurse Coordinator (RNC) will monitor
compliance monthly. Reports will be reviewed at the Quality Executive Board monthly.

Recommendation 8. We recommended that processes be strengthened to ensure that
staff document residents’ progress toward restorative nursing goals and that compliance
be monitored.

Concur

Target date for completion: December 31, 2014

Facility response: The Activities of Daily Living (ADL) note will be revised to enhance
documentation of residents’ progress towards restorative goals. Staff will be educated
by the RNC. The RNC will monitor compliance monthly. Reports will be reviewed at
the Quality Executive Board monthly.

Recommendation 9. We recommended that processes be strengthened to ensure that
staff document residents’ restorative progress bi-weekly and that compliance be
monitored.

Concur

Target date for completion: December 31, 2014

Facility response: Re-educate all nursing staff to refer to restorative orders in Kardex to
guide documentation of progress toward goals. The RNC will monitor compliance
monthly. Reports will be reviewed at the Quality Executive Board monthly.

Recommendation 10. We recommended that the facility consult with VHA program
managers regarding SPS humidity control issues and that recommended actions be
followed.

Concur

Target date for completion: June 30, 2014

Facility response: The National SPS group has been consulted as to their practice
when humidity controls fall outside the recommended levels. Humidity levels will
continue to be monitored. SPS staff are visually inspecting packages prior to leaving
the SPS area and during distribution of the packages. Clinic areas inspect all
packages prior to use. The policy for Sterilization, Disinfection, and Cleaning will be
modified to reflect the visual monitoring activity. Attestation memo will be completed
monthly by the Sterile Processing Service Supervisor verifying that packages have
been inspected daily and reported to Quality Executive Board monthly.




VA OIG Office of Healthcare Inspections                                                          25
                                      CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI


Recommendation 11. We recommended that processes be strengthened to ensure
that all required participants or their designees attend weekly EOC rounds and that
compliance be monitored.

Concur

Target date for completion: December 31, 2014

Facility response: MCM 00-44, Hazard Surveillance was sent for first level concurrence
on April 2, 2014. Clarification was made to ensure that Building Maintenance and
Engineering are always represented at every hazard surveillance inspection. This will
be documented through the hazard surveillance attendance and reported to Quality
Executive Board monthly.




VA OIG Office of Healthcare Inspections                                                          26
                                      CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI
                                                                                         Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Debra Boyd-Seale, RN, PhD, Team Leader
Contributors            Sheila Cooley, GNP, MSN
                        Wachita Haywood, RN
                        Laura Spottiswood, RN, MPH
                        Ann Ver Linden, RN, MBA
                        Gregg Hirstein, BS, Special Agent in Charge, Office of
                           Investigations
Other                   Judy Brown
Contributors            Elizabeth Bullock
                        Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                          27
                                      CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI
                                                                                         Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, Veterans In Partnership (10N11)
Director, Aleda E. Lutz VA Medical Center (655/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Carl Levin, Debbie Stabenow
U.S. House of Representatives: Dan Benishek, Dave Camp, Daniel Kildee,
 Candice Miller


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                          28
                                               CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI
                                                                                                  Appendix G

                                                   Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
    Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
   References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
   References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
    July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
   The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                             29
                                               CAP Review of the Aleda E. Lutz VA Medical Center, Saginaw, MI



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.
8
  The references used for this topic were:
	 Deputy Under Secretary for Health for Operations and Management, “Interim Guidance for Ventilation
   Requirements in Sterile Processing Service (SPS),” memorandum, January 4, 2012.
	 Deputy Under Secretary for Health for Operations and Management, “Environmental Rounds,” memorandum, 
   March 5, 2007.




VA OIG Office of Healthcare Inspections                                                                    30
